                                                             United States Department of State
                                                             and the Broadcasting Board of Governors

                                                             Inspector General




                                                                                        JAN 28 £1J09


MEMORANDUM

TO:             M - Patrick F. Kennedy

FROM:           IG ­ Harold W. Geisel, Acting       /(~0
SUBJECT:        Limited Review of Business Class Travel Made by Front qlJice Officials ofthe
                Bureau ajOceans and International Environmental and Scientific Affairs
                (AUD/SI-09-08, Jan. 2009)

Per your December 2008 request, the Office of Inspector General (OIG) conducted a limited
review of business class travel made by officials of the Front Office of the Bureau of Oceans and
International Environmental and Scientific Affairs (OES) during fiscal years 2007 and 2008.
The purpose of the review was to detcnnine whether the OES Assistant Secretary and the four
deputy assistant secretaries complied with federal and Department of State guidance as it relates
to overseas and business class travel. OIG found that OES officials did not always adhere to
travel regulations for properly preparing, authorizing, and maintaining documentation required
by the guidance.

Scope and Methodology

OIG reviewed 30 travel authorizations; 30 travel vouchers; and supporting documentation that
included DS Foon4087, Authorization Request for Business Class Air Travel, memoranda,
travel itineraries, airline tickets, and receipts for lodging and miscellaneous expenses. OIG
compared the travel authorizations with the itineraries and the vouchers to determine when travel
authorizations were created, authorizations were properly approved by a supervisor, and
expenses were accurate and allowable. OIG found that business class travel expenses
represented $258,512 (about 83%) ohhe $311,154 of total travel expenses for the 30 vouchers.
Each OES official used business class for every trip.

To conduct its review, DIG spoke with officials from the Bureau of Administration's Travel and
Transportation Management Office and the Bureau of Resource Management's Office of
Financial Review in Charleston, Sc. OIG also reviewed Federal Travel Regulations; the Foreign
Affairs Manual (14 FAM 560-567, '"Allowable Travel and Miscellaneous Expenses");
Department directives and cables; and Office of Management and Budget Memorandum M-08­
07, January 8, 2008, Use oj Premium Class Travel.




  Address correspondence Co: U.S. Department ofSCate., Office of Inspector General, Washingt:on, D.C. 20522--6308
                                         UNCLASSIFIED



Preparation of Travel Authorizations and Authorization Requests for Business Class Air
Travel

Orthe 30 travel authorizations reviewed, OIG identified the following deficiencies (more than
onc deficiency may apply to one authorization):
   •	 25 authorizations included a OS Form 4087 citing travel in excess of 14 hours, the length
       of travel required to justify business class accommodations. However:
            o	 Five of these trips were actually less than 14 hours (from one TOY stop to
               another).
            o	 Four of these authorizations were signed by officials at a leve1lower than that of
               the traveler.
            o	 Three authorizations had no authorization signature, employee signature, or
               authorization date.
   •	 5 travel authorizations did not include a OS Form 4087.
   •	 18 authorizations included actual expenses for lodging and meals but were not supported
       by a memorandum indicating approval that actual expenses could be incurred. The
       analysis showed that lodging expenses exceeded the established per diem rate by up to
       $188 per night.
   •	 11 authorizations were prepared after the traveler had returned from TOY.
   •	 7 authorizations did not reflect the business class authorization in Section 5, "Other
       Authorizations," or Section 11, "GTR Ticket Information" of the travel authorizations.

Reimbursement for Travel Expenses

Of the 30 travel vouchers reviewed, OIG identified the following deficiencies (more than one
deficiency may apply to one voucher):
    •	 29 vouchers were missing some or all of the required supporting documentation required
        for reimbursement, such as receipts, authorization and approval memoranda, and
        itineraries.
    •	 2 vouchers showed that the traveler had not followed the route established in the

        itinerary.


In addition to the 30 vouchers selected, OIG reviewed one separate authorization for a coach fare
trip that contained a reimbursement of $2,064. However, OIG determined that the actual cost
based on supporting documentation was $900. This matter was referred to OIG's Office of
Investigations for review.

The Department's travel regulations are clear and are in agreement with Federal Travel
Regulations. The requirements are not flexible but are important in the government-wide policy
on travel. However, additional oversight is needed to ensure that OES Front Office staff
complies with the established travel regulations.

         Recommendation 1: OIG recommends that the Undersecretary for Management
         consider appropriate actions to ensure that travel authorizations, travel vouchers, and OS
         Forms 4087 (Authorization Requestfl)r Business Class Air Travel) for officials of the
         Front Office of the Bureau of Oceans and International Environmental and Scientific
                                                                                                      2
                                        UNCLASSI FlED
                                       UNCLASSIFIED



       Affairs comply with Federal Travel Regulations and Department of State guidance. Such
       actions should ensure that required supporting documentation is accurate, complete, and
       properly approved by appropriate officials.

We would appreciate a response from an appropriate Department official within 30 days as to the
actions taken or planned to address recommendation 1. Actions taken or planned are subject to
follow-up and reporting in accordance with 010 resolution procedures.

010 appreciates the cooperation and assistance of Department staff in conducting this Jimited
review. JfYQl! have any questions or need additional information, please call me at (202) 663­
0361 or Mark W. Duda, Assistant Inspector General for Audits, at (202) 663~0372.




                                                                                                 3
                                       UNCLASSIFIED
